           U.S. Department of
                                                   Memorandum
           Transportation
           Office of the Secretary
           of Transportation
           Office of Inspector General


Subject:   ACTION: Report on FAA’s Actions To Address               Date:    September 9, 2004
           Allegations of Leave and Overtime Abuse at Five
           Locations
           AV-2004-081

  From:    Alexis M. Stefani                                     Reply to
                                                                 Attn. of:   JA-10
           Principal Assistant Inspector General
             for Auditing and Evaluation

    To:    Federal Aviation Administrator

           This report provides the results of our review of the Federal Aviation
           Administration’s (FAA) actions to address allegations of leave and overtime abuse
           at five locations. The Department of Transportation Office of Inspector General
           (OIG) Hotline received several complaints alleging that FAA employees at five
           facilities were manipulating work schedules, sick leave, and annual leave to
           increase overtime payments. Specifically, the complaints alleged that employees
           at those locations were:
               • Intentionally canceling sick leave after employees had been called in on
                   overtime to backfill absences,
               • Changing work schedules to earn both Sunday premium pay and overtime
                   pay,
               • Leaving as much as 4 hours before the end of their shift without taking
                   leave, and
               • Receiving credit hours for time not actually worked.

           In March 2004, FAA’s Deputy Administrator, the Air Traffic Organization’s Chief
           Operating Officer and Vice President of Terminals, and FAA’s Eastern Region Air
           Traffic Manager briefed the Inspector General on actions taken by the Agency to
           address issues contained in the hotline complaints at two of the named locations.
           At that meeting, it was agreed that the OIG would review actions taken at those
           two sites and expand the review to include the three other locations identified in
           the complaints.
                                                                                      2


The objectives of the review were to identify actions taken by Air Traffic
management to (1) investigate the allegations of FAA employees manipulating
work schedules, sick leave, and annual leave to increase overtime pay, and
(2) implement new policies and procedures to curtail potential future abuse, if
appropriate. The scope and methodology we used in conducting this review are
detailed in Exhibit A. Specific allegations, investigative actions taken, and
policies implemented by FAA are listed in Exhibit B.

RESULTS IN BRIEF
We found that FAA managers at the five locations had taken effective actions to
determine if the allegations were valid and to address them as appropriate. At
several of the locations, managers identified systemic patterns of potential abuse,
such as employees requesting leave and then reporting for duty after employees
had been called in on overtime to backfill absences. In response, managers at
those locations implemented facility-wide policy changes to curtail future abuse,
including limiting the authority of Controllers-In-Charge to approve overtime,
schedule changes, or credit hours.

The measures taken by Air Traffic managers represent a significant change from
actions taken by FAA in the past. In previous cases when we made FAA aware of
similar hotline allegations, the Agency took little or no action to deter or prevent
possible abuse or even to determine if the allegations were valid.

While the actions planned or taken at the five facilities are clearly steps in the right
direction, it is important to recognize that they may not be representative of an
Agency-wide trend. FAA has over 300 towers, terminal radar approach control
facilities, and en route centers. At the five locations we visited, we observed that
managers took an extra effort to collect the data needed to identify possible cases
of abuse. However, that process is extremely labor intensive, and it is uncertain
whether managers throughout the Agency are putting forth similar efforts.

The absence of an automated system that provides the information that managers
need to adequately monitor leave and overtime usage underscores the need for
FAA to have its labor distribution system in place and operating. FAA plans to
begin implementing the system for the Air Traffic Organization in September
2004. As part of that deployment, we are recommending that FAA identify the
specific information managers need to effectively monitor overtime and leave
usage and ensure that the system will be able to capture the necessary data.
                                                                                                                   3


OBSERVATIONS
At the five facilities listed in the hotline complaints, we found that Air Traffic
management was focused on assessing whether allegations in the complaints
occurred and implementing policies and procedures to prevent future occurrences,
where appropriate. For example, at all five locations, managers had implemented
stronger controls over leave and overtime usage by limiting the authority of
Controllers-In-Charge to approve overtime, schedule changes, or credit hours.
According to FAA managers at one of the locations, in the first pay period alone,
this change resulted in a reduction of over 360 hours in overtime, yielding an
estimated savings of about $30,000.

At three of the five locations, we found that FAA plans to open negotiations with
the controllers’ union to rescind an Eastern Region order from 1983 that allows
controllers to earn both Sunday premium pay and overtime pay in the same week
by simply changing their schedule on paper.1

At three of the five locations, we also found that management had conducted an
extensive review of sick leave usage. As a result of that review, approximately
40 controllers were sent letters requiring future use of sick leave to be documented
by a physician’s note.

In our opinion, the overall actions taken or planned by Air Traffic management at
the five locations represent a significant change in direction from FAA’s past
actions. In several previous cases when we made FAA aware of similar hotline
allegations, the Agency took little or no action to deter or prevent possible abuse
or even to determine if the allegations were valid.

We did observe, however, that identifying potential cases of abuse required an
extensive amount of effort by facility supervisors and staff. At the five locations,
we found that managers developed elaborate internal systems to track workforce
information so that they had the necessary data to identify potential cases of abuse.
For example, we observed that managers at one facility manually entered time and
attendance data into as many as three internally developed databases so that
information was available to monitor overtime and leave usage.

At another location visited, we found that FAA is testing a new system called a
“productivity worksheet” that recaps facility-wide data on information such as
time-on-position, leave, overtime, breaks, and collateral duties. This new

1
    Employees cannot get both Sunday premium pay (125 percent of base pay) and overtime pay (150 percent of base
    pay) for the same day worked. Therefore by changing their schedules to reflect another day as their scheduled day
    off, employees would earn Sunday premium pay on the Sunday and overtime pay on another day during the
    workweek.
                                                                                 4


initiative, although still in the preliminary stages of development, is encouraging
because it demonstrates that FAA is actively working to identify new methods for
monitoring workforce-related issues and improving productivity. However, this
process also requires data to be extracted manually from multiple sources.

At the five facilities we visited, managers had the necessary data to determine if
allegations were valid because they manually collected that information.
However, because the process is extremely labor intensive, it is uncertain whether
all facility managers in FAA are putting forth similar efforts to collect the data
needed to appropriately monitor overtime and leave usage. FAA has over
300 towers, terminal radar approach control facilities, and en route centers.

The absence of an automated system to collect the data managers need to
adequately monitor leave and overtime usage underscores the need for FAA to
have its labor distribution system in place and operating. That system could
potentially be used to provide the necessary information needed to monitor
overtime and leave usage.

However, FAA must first specify the data required by managers to identify
potential cases of leave and overtime abuse and ascertain if the labor distribution
system has the capability to provide it. If the system cannot provide the necessary
data, then FAA needs to modify the system. FAA plans to begin implementing the
labor distribution system in September 2004. As part of that deployment, we
recommend that FAA identify the specific data needed for managers to effectively
monitor overtime and leave usage and ensure that the labor distribution system
will eventually be able to capture the data identified.

RECOMMENDATION
At the five facilities we visited, managers had the necessary information to
determine if allegations were valid because they manually collected that
information. However, because the process is extremely labor intensive, it is
uncertain whether facility managers at other facilities are putting forth similar
efforts to collect the data needed to appropriately monitor overtime and leave
usage.

Accordingly, to ensure that FAA has Agency-wide tools for meeting those needs,
we recommend that FAA identify the information that managers will need to
monitor overtime and leave usage, determine whether the labor distribution system
will capture the information identified, and modify the system as needed to ensure
the appropriate information is captured and reported.
                                                                                   5


MANAGEMENT COMMENTS
On August 16, 2004, we met with the FAA Deputy Administrator to discuss the
facts and recommendation in our draft report. We also provided a draft copy of
our report to the Air Traffic Manager for FAA’s Eastern Region. Both officials
stated they generally agreed with the facts as presented in our report and concurred
with the recommendation.

ACTIONS REQUIRED
In accordance with Department of Transportation Order 8000.1C, we would
appreciate receiving your written comments within 30 calendar days. If you
concur with the finding and recommendation, please indicate the specific action
taken or planned for the recommendation and the target date for completion. If
you do not concur, please provide your rationale. You may provide alternative
courses of action that you believe would resolve the issues presented in this report.

We appreciate the cooperation and assistance provided by you and your staff
during our review. If you have any questions or need further information, please
contact me at (202) 366-1992 or David A. Dobbs, Assistant Inspector General for
Aviation Audits, at (202) 366-0500.

                                          #

cc: FAA Deputy Administrator
    Air Traffic Chief Operating Officer
    FAA Chief of Staff
    Anthony Williams, ABU-100
                                                                                 6




EXHIBIT A. SCOPE AND METHODOLOGY
We conducted this review from April through August 2004 at the five facilities
listed in the OIG Hotline complaints.

To determine what actions FAA had taken to investigate allegations of leave and
overtime abuse, we interviewed managers at two regional headquarters and the
five facilities identified in the hotline complaints. We reviewed the facility
policies regarding overtime and leave approvals and discussed plans for new
policies that outline potential abuses. We reviewed procedures taken at each
facility to investigate the allegations, including actions taken after the initial
responses to the allegations were received. Finally, we reviewed time and
attendance data, as well as leave, overtime, and cost reports.

To identify actions taken by FAA management to implement new policies and
procedures to curtail potential future abuse, we interviewed managers at two
regional headquarters and the five facilities identified in the hotline complaints.
We reviewed current policies and procedures used at each facility regarding the
approval of overtime and leave. We also reviewed any planned actions by the
facilities to address the allegations and future potential abuses. Finally, we
reviewed productivity worksheets and memorandums of agreement to determine
their effect on facility procedures.

We conducted this review in accordance with Government Auditing Standards
prescribed by the Comptroller General of the United States and included such tests
as we considered necessary to provide reasonable assurance of detecting abuse or
illegal acts.




Exhibit A. Scope and Methodology
                                                                                  7




EXHIBIT B. HOTLINE ALLEGATIONS AND FAA
ACTIONS

Allegation: Employees intentionally cancelled sick leave after employees had
been called in on overtime to backfill their absence.

Actions Taken by FAA: At the five facilities we visited, managers stated that
they investigated the hotline allegations by reviewing time and attendance and
sign-in and sign-out logs. For example, one regional air traffic manager directed
all facility managers in his region to conduct a review, which identified multiple
instances of employees requesting sick leave and then reporting for duty after
backfill overtime had been authorized.          In those instances, contractual
requirements allow both employees to work the full shift. At other locations,
managers reviewed time and attendance data but did not find similar patterns of
potential systemic abuse.

Policies and Procedures Implemented by FAA: All five facilities we visited had
current or planned policies and procedures that require a supervisor or operations
manager to approve backfill overtime. For example, at one facility new
procedures are being tested that require operations managers to approve overtime
rather than the Controllers-In-Charge. According to FAA managers, after one pay
period, overtime was reduced by 362 hours, yielding an estimated savings of
$30,000. At another facility, managers told us that similar procedures have been
in place for 3 years.

At three of the five locations, we also found that management had conducted an
extensive review of sick leave usage. As a result of that review, approximately
40 controllers were sent letters requiring future use of sick leave to be documented
by a physician’s note.

Allegation: Employees changed work schedules so that both Sunday
premium and overtime pay were earned.

Actions Taken by FAA: At one of the five facilities visited, facility managers
reviewed payroll printouts to determine which employees earned Sunday premium
pay and overtime pay during the same week. These records were further reviewed
to determine if this happened due to a change in work schedule. However, no
instances were found where work schedules were specifically changed so that
employees could earn both Sunday premium pay and overtime pay.



Exhibit B. Hotline Allegations and F AA Actions
                                                                                    8


FAA’s Eastern Region, however, has a Regional order dating from 1983 that
stipulates that employees who regularly work 6-day work weeks should have their
work schedules changed to reflect Sunday as a regular workday and another day as
their overtime day. This allows employees to receive both overtime pay and
Sunday premium pay by manipulating their scheduled workshifts.

Policies and Procedures Implemented by FAA: The FAA Administrator stated
that the Eastern Region order is not consistent with FAA policy, and the Agency
plans to open negotiations with the union to rescind the order.

Allegation: Employees left as much as 4 hours before the end of their shift
without taking leave.

Actions Taken by FAA: Managers investigated the allegations by comparing
sign-in and sign-out logs to when an employee actually logged onto or signed off
of an operational position. At one region, facility managers investigated the
allegation and found instances where extended periods of time had elapsed
between the time a controller actually signed out of an active position controlling
aircraft and when the controller’s shift ended. However, specific instances of
abuse were not found and management plans to continue monitoring the situation.
At another region, the air traffic manager interviewed operations managers and
found that no bargaining unit employees had been unaccounted for during their
scheduled shifts.

Policies and Procedures Implemented by FAA: All five facilities visited have
policies and procedures holding supervisors and operations managers accountable
for knowing the location of their employees throughout the work shift. In
addition, FAA is testing a new tool called a “productivity worksheet” that recaps
facility information, such as the amount of time an air traffic controller spends
actually controlling aircraft. One of the facilities we visited is a test facility for
this project.

Allegation: Credit hours were approved for hours not actually worked.

Actions Taken by FAA: At three of the five facilities we visited, managers
compared payroll reports to position sign-on logs to determine if controllers
worked an operational position while earning credit hours. At one region, facility
managers found instances where some controllers received credit hours while not
controlling aircraft or performing other controller duties. In another region, a
random sample of position sign-on logs showed that controllers were working
operational positions while earning credit hours.




Exhibit B. Hotline Allegations and F AA Actions
                                                                                    9


Policies and Procedures Implemented by FAA: All five facilities visited have
policies and procedures governing the credit hour program. However, three of the
five facilities issued new policies restricting the authority to approve credit hours.
For example, at one facility, authorization by a supervisor or operations manager
is required to earn credit hours. Additionally, at three locations, management
limited when credit hours could be earned and identified the specific activities that
would qualify for earning credit hours.




Exhibit B. Hotline Allegations and F AA Actions
